     Department of Homeland Security

     ��������������������������


 Alaska’s Management of Homeland Security Grant 

Program Awards for Fiscal Years 2010 Through 2012 





OIG-14-62                                 April 2014

                       OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 9 2014

MEMORANDUM FOR:              Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Alaska’sfManagementfoffHomelandfSecurityfGrantf
                             ProgramfAwardsfforfFiscalfYearsf2010fThroughf2012f

Attached for your action is our final report, Alaska’sfManagementfoffHomelandfSecurityf
GrantfProgramfAwardsfforfFiscalfYearsf2010fThroughf2012.fWe incorporated the formal
comments from the Office of Policy, Program Analysis and International Affairs and the
State of Alaska in the final report.

The report contains six recommendations aimed at improving the overall effectiveness
of Alaska’s management of Homeland Security Grant Program funds. Your office
concurred with all of the recommendations. Based on information provided in your
response to the draft report, we consider all of the recommendations open and
resolved and recommendation #3 closed. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that
we may close the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the InspectorfGeneralfAct, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy, II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 3


              Allocation of Grant Funds to Local Units of Government ...................................... 4 

              Recommendation ................................................................................................... 5 

              Management Comments and OIG Analysis ........................................................... 5 


              Performance Measurements ................................................................................. 6 

              Recommendations ............................................................................................... 10 

              Management Comments and OIG Analysis ......................................................... 10 


              Subgrantee Monitoring and Oversight ................................................................ 11 

              Recommendations ............................................................................................... 16 

              Management Comments and OIG Analysis ......................................................... 16 


              Best Practices ....................................................................................................... 18 



   Appendixes
    

              Appendix A:           Objectives, Scope, and Methodology .......................................... 19 

              Appendix B:           Management Comments to the Draft Report ............................. 21 

              Appendix C:           Description of the Homeland Security Grant Program ................ 30 

              Appendix D:           Major Contributors to This Report .............................................. 31 

              Appendix E:           Report Distribution ...................................................................... 32 





www.oig.dhs.gov                                                                                                                 OIG-14-62

                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


   Abbreviations
           CFR      Code of Federal Regulations
           DHS      Department of Homeland Security
           DHS&EM   Division of Homeland Security and Emergency Management
           FEMA     Federal Emergency Management Agency
           FY       fiscal year
           HSGP     Homeland Security Grant Program
           LCA      logistics capability assessment
           OIG      Office of Inspector General
           SAA      State Administrative Agency
           SHSP     State Homeland Security Program
           SMART    specific, measurable, achievable, results-oriented, and time-
                    limited
           THIRA    Threat and Hazard Identification and Risk Assessment




www.oig.dhs.gov                                                                     OIG-14-62

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual states’ and territories’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for Alaska.

   The audit objective was to determine whether Alaska used Homeland Security Grant
   Program funds in accordance with the law, program guidance, and state homeland
   security plans and other applicable plans. We also addressed the extent to which funds
   awarded enhanced the ability of grantees to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters. The
   Federal Emergency Management Agency (FEMA) awarded Alaska approximately
   $14.6 million in State Homeland Security Program grants during fiscal years 2010
   through 2012.

   Alaska developed written procedures for program administration; ensured that grant
   expenditures for equipment purchases, planning, training, exercises, and administrative
   activities were allowable and complied with grant reporting requirements. The State
   linked its homeland security strategy goals and objectives to DHS mission areas in
   compliance with applicable FEMA guidance. We identified the State’s subgrantee
   application and award processes as best practices.

   However, Alaska can improve its homeland security strategies by including target levels
   of performance and the means to measure progress toward enhancing preparedness at
   both the state and subgrantee level. The State needs to ensure that 80 percent of grant
   funds are obligated to local jurisdictions and improve compliance with procurement
   procedures and documentation requirements. It also needs to strengthen its monitoring
   of subgrantees by updating its policies and processes and ensure that updates to
   policies and manuals include a list of changes.

   We made six recommendations to FEMA, which, when implemented, should strengthen
   program management, performance, and oversight. FEMA and the State concurred with
   all of the recommendations. Written comments to the draft report are incorporated as
   appropriate and are included in appendix B.




www.oig.dhs.gov                               1                                        OIG-14-62

                                     OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to 

   assist State and local agencies in preventing, preparing for, protecting against, and 

   responding to acts of terrorism. The State Homeland Security Program (SHSP) is one 

   program included in the HSGP and is designed to fund a wide range of preparedness 

   needs including planning, organization, equipment, training, and exercises. See 

   appendix C for a description of all HSGP programs. 


   FEMA awarded the State of Alaska (the State or Alaska) SHSP grant funds during fiscal 

   years (FY) 2010, 2011, and 2012 totaling approximately $14.6 million. Alaska is the 

   largest state in the United States by area, ranks 47th in total population, and is the least 

   densely populated of the 50 states. More than 40 percent of Alaska's 731,449 residents 

   (as of 2012) live within the Anchorage metropolitan area.


   The Alaska Division of Homeland Security and Emergency Management (DHS&EM) is the 

   state administrative agency (SAA) responsible for administering the HSGP. The SAA is 

   responsible for managing the grant program in accordance with established Federal 

   guidelines and allocating funds to local, tribal, and other Alaska government entities. 


   Figure 1 illustrates the level of SHSP funding Alaska received over a 5-year period. 

   SHSP funding averaged $4.9 million per year during FYs 2010 to 2012, the periods 

   covered by our audit. The State received its highest level of SHSP funding in FY 2010, but 

   faced a nearly $3.2 million decline from 2010 levels in FY 2013. 


   Figure 1. FYs 2009-2013 Alaska SHSP Funding Levels
                   $7
       Millions





                   $6

                   $5

                   $4
                        $6,524,500    $6,613,200
                   $3
                                                   $5,137,205
                   $2
                                                                               $3,459,364
                                                                $2,801,316
                   $1

                   $-
                          2009          2010           2011       2012            2013

   Source: DHS OIG prepared using FEMA data


www.oig.dhs.gov                                    2                                        OIG-14-62
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires the DHS OIG to audit individual States’ management of
   SHSP and Urban Areas Security Initiative grants. This report responds to the reporting
   requirements for the State of Alaska. Appendix A describes the objectives, scope, and
   methodology of this DHS OIG audit.

   Results of Audit
   Alaska developed written procedures for program administration, ensured that grant
   expenditures for equipment purchases, planning, training, exercises, and administrative
   activities were allowable per the grant guidance, and complied with grant reporting
   requirements. Also, the State’s homeland security strategies linked goals and objectives
   to DHS mission areas in compliance with applicable FEMA guidance.

   However, the following improvements will enhance Alaska’s grant management
   practices:

           •	 Ensure 80 percent of grant funds are obligated to local units of government
              as mandated by law;
           •	 Measure progress and improvements in state and subgrantee preparedness;
           •	 Ensure compliance with procurement procedures and documentation
              requirements;
           •	 Strengthen monitoring of subgrantee activities by updating state policies and
              procedures; and
           •	 Ensure that updates to handbooks and policies for subgrantees contain a
              summary of changes.

   Additionally, the audit team’s evaluation of Alaska’s administration of the FYs 2010
   through 2012 SHSP grants included analysis of financial reporting to FEMA, with no
   discrepancies noted between Alaska’s quarterly financial reports to FEMA and the
   State’s official accounting records. The team assessed grant applications, budgets, and
   SAA personnel timesheets and concluded that the State used SHSP grant funds for
   management and administration activities in accordance with Federal requirements.
   The audit team also analyzed the State’s obligation of SHSP funds to local units of
   government for sites we visited and determined that, with one minor exception, funds
   were obligated within 45 days as required by law. We identified the State’s subgrantee
   application and award processes as best practices.




www.oig.dhs.gov                               3	                                       OIG-14-62

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            Allocation of Grant Funds to Local Units of Government


            The SAA acknowledged that, for FY 2011, it did not obligate 80 percent of its
            SHSP grant funds to local units of government within 45 days of receipt of HSGP
            grant funds as required by law. The SAA submitted its FY 2011 funding allocation
            plan to FEMA, indicating the required 80 percent pass-through obligation, but
            the actual obligation was less than the amount submitted. Not providing full
            grant funding to local government units within the required timeframe could
            result in delays for projects intended to improve homeland security and achieve
            program objectives.

            According to Public Law 110-53 and FEMA's award conditions for FYs 2010
            through 2012, HSGP grant recipients must obligate 80 percent of grant funds to
            subgrantees within 45 days of the receipt of funds. FEMA guidance strongly
            encourages the timely obligation of funds from local units of government to
            subgrantees. We reviewed the Alaska grant funding distribution documents for
            FYs 2010 through 2012 from the SAA, calculated the 80 percent distributions,
            and compared the totals to other supporting grant documentation.

            Table 1 shows the Federal grant totals for FYs 2010 through 2012, the amount
            the State was required to pass through, the amount actually obligated to
            subgrantees, and the difference between these amounts.

            Table 1. Allocation of Grant Funds to Local Units of Government During Initial 45-Day
            Period
                                Federal Grant      80% Pass-        Actual SAA       Remaining
              Grant FY Year
                                    Total           Through        Pass-Through        Funds
                   2010            $6,613,200           $5,290,560          $5,290,560                  $0
                   2011            $5,137,205           $4,109,764          $4,059,699            $50,065
                   2012            $2,801,316           $2,241,053          $2,241,053                 $0
            Source: DHS OIG prepared using SAA data

            According to the SAA, all FY 2011 SHSP projects were not fully funded during the
            allocation process. SAA leadership determined that these projects should be fully
            funded for the overall success of Alaska Shield.1 According to the SAA, it
            reallocated FY 2009 SHSP grant funding to some FY 2011 Alaska Shield projects


   1
    Alaska Shield is a biannual training and exercise event that applies classroom experience in a full-scale
   exercise that involves the entire community in managing risks. The State uses identified gaps to guide
   future planning.

www.oig.dhs.gov                                         4                                                 OIG-14-62
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           to ensure that these projects were fully funded and that all FY 2009 SHSP funds
           were expended by the end of the performance period.

           The State submitted its allocation plan to FEMA depicting the required 80
           percent obligation but did not pass through these funds within 45 days of receipt
           of HSGP grant funds, as required. The actual obligation was $50,065 less than the
           submitted amount, and the SAA did not know why that amount was not initially
           obligated. According to the SAA, these funds were obligated to a subgrantee on
           October 21, 2013. Not obligating 80 percent of SHSP grants funds to local
           government units within 45 days of receipt of the HSGP award could result in the
           delay of projects intended to increase homeland security and achieve program
           objectives.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Alaska Division of Homeland Security and Emergency Management
           to:

           Recommendation #1:

           Assess the current processes and procedures for allocating funds to ensure at
           least 80 percent of Homeland Security Grant Program funds are allocated to
           subgrantees as required.

           Management Comments and OIG Analysis

           FEMA and the State provided comments on the draft of this report. Appendix B
           includes a copy of the responses in their entirety.

           Management Comments to Recommendation #1. FEMA and the State concurred
           with the recommendation. FEMA reported that it will require the Alaska
           DHS&EM to assess and make any necessary changes to the current processes
           and procedures for allocating funds to ensure at least 80 percent of HSGP funds
           are allocated to subgrantees as required. The estimated completion date is
           August 11, 2014. The SAA will create two management oversight features within
           its grant-tracking database to track both the 45-day and 80 percent requirement.
           Additionally, the SAA will include a status brief to its leadership during the 45-
           day period.



www.oig.dhs.gov                                5                                        OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis. We consider FEMA’s and the State’s proposed corrective actions to
           be responsive to the recommendation. The recommendation is resolved and will
           remain open until we are provided with documentation that the grants database
           revisions and procedure implementation have been completed.

           Performance Measurements

           SAA officials said they did not have any performance measurement policies or
           procedures at the subgrantee level. Instead, SAA relied on self-assessments
           performed by the subgrantees to assess the impact of grant projects. The State’s
           FYs 2010 through 2012 homeland security strategies contained goals and
           objectives that did not always adhere to FEMA’s requirement that goals and
           objectives be specific, measurable, achievable, results-oriented, and time-limited
           (SMART). Additionally, the State’s FY 2012 Threat and Hazard Identification and
           Risk Assessment (THIRA) did not address its capability targets when describing
           desired outcomes.

           According to Title 44 of the Code of Federal Regulations (CFR) §13.40,
           MonitoringfandfReportingfProgramfPerformance,fgrantees are required to
           monitor grant and subgrant-supported activities to ensure performance goals
           are being achieved. Alaska may not be able to evaluate the effect of grant
           expenditures on its preparedness and emergency response capabilities without
           measurable target performance levels for goals and objectives.

           State Preparedness Measurements

           The State made efforts to measure improved preparedness by requiring
           subgrantees to submit a logistics capability assessment (LCA) each year the
           subgrantee applied for an SHSP grant. The LCA measured local jurisdiction
           preparedness and identified the capabilities and gaps for each locality. The SAA
           compiled the results from the individual assessments into a summary report that
           was used as input to the THIRA. SAA officials said they did not have any
           performance measurement policies or procedures at the subgrantee level.
           Instead, SAA officials relied on self-assessments performed by the subgrantees
           to assess the impact of grant projects.

           The purpose of the LCA was to enhance response readiness for the initial 72
           hours of a disaster. The LCA helped the SAA identify and target shortages among
           requirements, standards, and performance. According to SAA officials, each
           locality measured its capabilities and gaps differently, and the SAA was not
           primarily concerned with specifying the level of improvement achieved or the
www.oig.dhs.gov                                6                                        OIG-14-62

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           percentage increase in capabilities for individual subgrantees. SAA officials said
           that the room for capability enhancement was so vast in many communities that
           the SAA did not see a need to quantify improvements.

           Without standardized measurements for subgrantee self-assessments, and
           procedures ensuring that improvements achieved through grant-funded projects
           are accurately measured, it may be difficult to objectively assess the State’s
           preparedness as a whole.

           Homeland Security Strategy Goals and Objectives

           Alaska’s homeland security strategies for FYs 2010 through 2012 included goals
           and objectives that addressed the prevention, protection, response, and
           recovery areas of national preparedness as required by FEMA guidance.
           However, the State’s goals and objectives did not always adhere to FEMA’s
           requirement that goals and objectives be SMART.

           The audit team reviewed all of the goals and objectives from Alaska’s FYs 2010
           through 2012 homeland security strategies for SMART compliance and identified
           186 SMART deficiencies in 67 objectives from 3 strategies. Table 2 contains the
           details of this analysis.

           Table 2. FYs 2010-2012 Homeland Security Strategies Deficiencies
                     FYs 2010-2012 SMART Deficiencies
                                                                Objectives with Deficiencies
                            (67 Total Objectives)
                                          FY       FY   FY
                  Requirement                                     Number        Percentage
                                        2010      2011 2012
            Specific              S       13       14     3           30            44.8%
            Measurable            M       27       27    13           67           100.0%
            Achievable            A        0        0     0            0              0.0%
            Results-oriented      R        9        8     5           22            32.8%
            Time-limited          T       27       27    13           67           100.0%
           Source: DHS OIG prepared using state data

           Many of the State’s objectives were not specific and results-oriented, and none
           were measurable and time-limited. For example, one FY 2012 objective was to
           “[s]trengthen regional capabilities through joint preparedness activities and
           expand citizen capabilities and preparedness through community, school, and
           private sector/business outreach.” This objective included four steps:



www.oig.dhs.gov                                        7                                 OIG-14-62

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •	 Develop and implement regional workshops on homeland security and
                     emergency management issues;
                  •	 Develop and implement statewide workshops on homeland security and
                     emergency management issues;
                  •	 Provide training and other support as necessary to assist local
                     jurisdictions to further develop preparedness and an ongoing process to
                     sustain citizen preparedness capabilities; and
                  •	 Build new partnerships to expand planning and citizen capabilities.

           This objective and its steps were not specific, measurable, results-oriented, and
           time-limited. It was unclear how and with whom the steps were to be taken,
           how the results should have been quantified, what the desired outcomes were,
           and when the steps should have been completed. Objectives that are not
           specific, results-oriented, measurable, and time-limited may not be
           appropriately prioritized, completed timely and as intended, and may prevent
           the SAA from accurately assessing improvements to preparedness capabilities.

           As of FY 2013, FEMA, although encouraging states to update their homeland
           security strategies, instead used the THIRA process for identifying capability
           goals. Alaska’s homeland security strategy was no longer the focus of FEMA’s
           capability assessment. However, the State should ensure that its capability goals
           identify desired outcomes and include standards to measure work toward those
           goals.

           THIRA Desired Outcomes

           The State’s FY 2012 THIRA did not address its capability targets when describing
           desired outcomes. Also, we determined that the State’s THIRA did not address
           two of the SMART deficiencies from its homeland security strategy. The THIRA
           was not results-oriented because it did not adequately describe desired
           outcomes, and it was not time-limited because it did not include deadlines for
           preparedness activities. The State may not be able to evaluate the effect of grant
           expenditures on its preparedness and emergency response capabilities without
           measurable target performance levels for goals and objectives.

           The THIRA provided a comprehensive approach for identifying and assessing
           risks and associated impacts and incorporated a whole community approach
           throughout the planning process. FEMA issued guidance outlining the THIRA
           process in April 2012 and completion of a THIRA was a performance requirement
           for the FY 2012 HSGP grant cycle. The State submitted its first THIRA in
           December 2012.
www.oig.dhs.gov                                  8	                                     OIG-14-62

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



           Alaska's FY 2012 THIRA did not provide details or descriptions of desired
           outcomes. Rather, it provided that the State had a plan in place for addressing
           hazards and the plan for each particular hazard was updated annually. According
           to the THIRA criteria, this was not a desired outcome.

           According to the THIRA guide, desired outcomes should explain what the
           jurisdiction wants to achieve for each core capability. In developing well-defined
           outcomes, it is important to consider timelines for achieving these outcomes. For
           example, in the response and recovery mission areas, desired outcomes for
           these core capabilities can be bound by time (e.g., must be accomplished within
           72 hours, 60 days, 6 months, or 1 year). Desired outcomes for the prevention,
           protection, and mitigation mission areas may be better presented as a
           percentage (e.g., 100 percent or 75 percent).

           Alaska's desired outcome for fatality management services was, “Plans are in
           place, exercised and updated annually to effectively manage an event with mass
           fatalities in all regions of the state." According to the THIRA guide, a desired
           outcome for fatality management services could be "During the first 72 hours of
           an incident, conduct operations to recover fatalities."

           FEMA Region X conducted a validation of the State’s 2012 THIRA and
           recommended the following improvements:

                  •	 More detailed and quantifiable "impacts" for each of the major scenarios
                     for each core capability;
                  •	 More detailed “desired outcome” statements that explicitly state what
                     the state wants to achieve for each core capability; and
                  •	 More detailed “capability targets” that are bounded by discrete metrics
                     that may include a timeline for completion.

           SAA officials said that they felt the THIRA imposes time-consuming
           requirements, which were not justified by the results obtained. Without
           measurable target performance levels for goals and objectives, Alaska may not
           be able to evaluate the effect of grant expenditures on its preparedness and
           emergency response capabilities.




www.oig.dhs.gov                                  9	                                     OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Alaska Division of Homeland Security and Emergency Management
           to:

           Recommendation #2:

           Develop comprehensive performance measurement systems for grant program
           goals and objectives that include target levels of performance and criteria
           against which to measure progress toward enhancing preparedness.

           Recommendation #3:

           Ensure updates to Alaska’s THIRA include details and descriptions of desired
           outcomes as required by FEMA guidance.

           Management Comments and OIG Analysis

           Management Comments to Recommendation #2. FEMA and the State concurred
           with the recommendation. FEMA reported that in August 2013, it refined its
           THIRA methodology through the release of a revised Comprehensivef
           PreparednessfGuidef(CPG)f201, Second Edition. This revision expands the THIRA
           process to include an estimation of resources needed to meet the capability
           targets. The THIRA process now assists communities to answer questions such
           as, "What are my current and future risks?" and "What level of service do I need
           to address my risks?" and addresses what specific capabilities are needed, such
           as teams of specialized resources. Rather than the uniform establishment of
           measures and metrics for a capability, FEMA reported that this approach allows
           a jurisdiction to establish its own capability targets based on the risks it faces.

           According to the SAA, it created the Alaska Assessment to collect information on
           23 core capabilities in the three mission areas of response, recovery, and
           mitigation. Communities in the State follow guidance from the National
           Preparedness Goal and the Preparedness Cycle to report on these core
           capabilities in each mission area to establish target levels of performance by
           identifying desired outcomes. According to the SAA, its Community
           Preparedness Report, a product of the Alaska Assessment, will show the current
           level of preparedness and will identify future goals and objectives that need to
           be addressed in the community during the next grant year. Year-to-year progress
           will be measured by enhancing preparedness and reflected in future

www.oig.dhs.gov                                10                                         OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           assessments. According to the SAA, the next subgrantee assessments will be due
           in December 2014 for analytical review and culminating data into the Alaska
           THIRA submission.

           OIG Analysis. We consider FEMA’s and the State's proposed corrective actions to
           be responsive to the recommendation. The recommendation is resolved and will
           remain open until we are provided with a copy of the State's 2014 Community
           Preparedness Report, subsequent analysis, and its THIRA submission.

           Management Comments to Recommendation #3. FEMA and the State concurred
           with the recommendation. FEMA reported it will require the Alaska DHS&EM to
           ensure that future updates to Alaska's THIRA include details and descriptions of
           desired outcomes as required by FEMA guidance; an update to this guidance was
           issued in August 2013. The estimated completion date is January 1, 2015.
           According to the SAA, it corrected the desired outcomes and capability targets in
           its 2013 THIRA. A review by FEMA's Region X of this THIRA indicated that the
           State's 2013 THIRA "closely adheres to new THIRA program requirements while
           seamlessly building upon its 2012 submission."

           OIG Analysis. We consider FEMA’s and the State’s proposed corrective actions to
           be responsive to the recommendation. The recommendation is resolved and
           closed.

           Subgrantee Monitoring and Oversight

           The SAA’s monitoring and oversight of subgrantees did not ensure that all
           subgrantee procurement policies reflected Federal grant procurement
           requirements in 44 CFR Part 13. In addition, the SAA had specific requirements
           for procurement documentation to be maintained in its subgrantee master files.
           However, these files, for the 10 sites we visited, did not always contain the
           required procurement documents. Also, the SAA has a subgrantee monitoring
           policy that it did not follow regarding the use of risk assessments to determine
           site visits, and its monitoring policies did not include detailed checklists for
           assessing subgrantees during a site visit. Lastly, the SAA made changes to its
           GrantsfManagementfHandbook without publishing a list of changes for
           subgrantees. As a result, subgrantee procurements may not have been
           completed according to Federal, state, or local regulations; SAA personnel may
           not be using consistent criteria to evaluate subgrantee internal controls; and
           subgrantees may not be able to determine changes to the GrantsfManagementf
           Handbook (or other policies).


www.oig.dhs.gov                               11                                       OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Subgrantee Procurement Policies

           Three of the 10 subgrantees we visited had procurement policies and procedures
           that did not contain all the provisions mandated by Federal regulations. The SAA
           did not ensure that all subgrantees had the required Federal procedures in their
           procurement codes or policies. As a result, subgrantee procurements may not
           have been completed in accordance with Federal regulations.

           Subgrantees are required by 44 CFR Part 13, to maintain a written code of
           standards of conduct to govern the performance of their employees engaged in
           the award and administration of contracts. Subgrantee procedures must also
           include measures to avoid the purchase of unnecessary or duplicative items with
           Federal grant funds. Additionally, subgrantees must not make or permit any
           award to a vendor that is debarred, suspended, or otherwise excluded from
           participation in Federal assistance programs. State procurement policy requires
           that a proposal received from a debarred or suspended vendor be rejected.

           We reviewed the procurement policies of 10 subgrantees that received SHSP
           grant funding between FYs 2010 and 2012 and identified one subgrantee that
           did not have a written code of standards of conduct in its procurement
           procedures. Such standards are intended to ensure that no employee or agent of
           a jurisdiction engages in the award or administration of a contract in which they
           have a real or apparent conflict of interest.

           Three subgrantees that received SHSP funds between FYs 2010 and 2012 did not
           have provisions in their procurement codes to prevent the purchase of
           unnecessary or redundant equipment. One of these jurisdictions cited its small
           size as a guard against the purchase of duplicate equipment because it was more
           aware of its inventory. This does not negate the CFR requirement for
           subgrantees to have procedures that provide for the review of proposed
           procurements to prevent redundancies. An official from another jurisdiction said
           they did not have formal procedures to prevent redundant purchases and relied
           on a period of public comment to avoid redundancies.

           An official at a third jurisdiction said they used a software program to screen
           planned procurements to avoid duplicative or unnecessary procurements but did
           not have written procurement procedures, as required, for this process.

           Two subgrantees did not check the suspended and debarred vendors list before
           making a procurement. Officials from one jurisdiction cited the close-knit
           business community in Alaska as a reason subgrantees did not need to perform

www.oig.dhs.gov                               12                                       OIG-14-62

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           this check since they would immediately know, through informal channels, if a
           vendor was suspended or debarred. However, the SHSP procurements made by
           this subgrantee were not all made from in-state vendors.

           Subgrantee officials from another jurisdiction said they believed that checking
           the suspended and debarred vendors list was not an issue since the State
           performs this check. The SAA confirmed that they also check the suspension and
           debarment list. However, relying on the SAA to perform this check could result in
           a jurisdiction incurring an SHSP expense that was not eligible for reimbursement
           because it used a proscribed vendor.

           Subgrantee Procurement Documentation

           Subgrantee master grant files did not always contain all of the procurement
           documentation required by SAA policy. The SAA did not always enforce its own
           policy for maintaining required procurement documentation in its subgrantee
           master grant files. As a result, some SAA master grant files did not completely
           document that procurements were made using all of the procedures required by
           State and Federal policy. Table 3 documents the SAA’s procurement
           documentation requirements for its master subgrantee files.

           Table 3. SAA Master Grant File Procurement Documentation Requirements
                Type of
                                           Required SAA Master File Documentation
             Procurement
               $5,000 to      • Statement certifying three verbal or written quotes obtained
               $25,000        • Signed by subgrantee Signatory Officials
                              • Brief description of procurement method and policies used
                              • Description of methods used to secure price quotations
               $25,000 to     • List of vendors
               $50,000        • Quotes received
                              • Vendor selection criteria
                              • Why contract was awarded
                              • Summary information and documentation of process used
                              • Invitation to Bid or Request for Proposals
               $50,000 and    • Vendor list or advertising used
               over           • Bids received
                              • Summary of selection process
                              • Copy of contract
           Source: DHS OIG prepared using SAA policies

           The audit team tested the SAA-maintained master grant files of 10 subgrantees
           from FYs 2010 through 2012 for compliance with the SAA’s procurement

www.oig.dhs.gov                                     13                                     OIG-14-62
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           documentation requirements. Table 4 shows the deficiencies identified as a
           result of our analysis.

           Table 4. Results of Procurement Documentation Testing
                                      Deficiencies                              Percentage of
                                      Identified in  Total Procurements         Procurements
           Procurement Amount
                                      Procurement         Reviewed             Not Completely
                                     Documentation                              Documented
            $5,000 to $25,000              26                  96                   27.1%
            $25,000 to $50,000                7                 23                   30.4%
            $50,000 and over                  6                 25                   24.0%
            Total                            39                144                   27.1%
           Source: DHS OIG analysis

           Documentary deficiencies identified included the failure to certify the receipt of
           three quotes for procurements costing between $5,000 and $25,000. A file for a
           $42,309 procurement had a record of ratings assigned by the subgrantee to the
           bids received but did not include a list of the actual bids. Likewise, the file for a
           procurement over $50,000 contained some, but not all, of the documentation
           required by SAA policy.

           Subgrantee Monitoring

           The SAA had a subgrantee monitoring policy that required the use of risk
           assessments to determine monitoring site visits; however, SAA officials said they
           did not follow the policy. SAA site visit monitoring procedures did not include a
           guide on how to assess each area covered by these procedures. As a result,
           monitoring site visits might not be targeted to those subgrantees with the
           highest risk, and SAA personnel may not be consistent in their evaluations of
           subgrantee internal controls.

           The subgrantee monitoring policy outlined a risk assessment process to
           determine site visits for the year. Factors include, among others, the ability to
           expend grant funds in a timely manner, progress in achieving project timelines
           and milestones, and compliance with procurement and contracting requirements.
           Had the SAA used this risk assessment process, it may have had difficulty
           assessing risk based on procurement documentation because the master
           subgrantee files did not always contain required procurement documentation.

           According to SAA personnel, they did not use the risk assessment process, and it
           was possible that a subgrantee had never had a monitoring site visit. For
www.oig.dhs.gov                                   14                                         OIG-14-62

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           example, the Municipality of Anchorage received more than $3 million in FYs
           2010 through 2012 and had not had a site visit, for SHSP grants monitoring, from
           2005 to 2013 although geographically close to the SAA. SAA personnel said that
           they did not evaluate and score based on risk as required in their published
           policies. They also said that their standards were out of date and were on the list
           to update. By not following their own risk assessment policies for determining
           site visits, SAA personnel may have overlooked potential issues that might have
           been mitigated in their early stages by a site visit.

           SAA subgrantee monitoring procedures provide limited guidance for site visit
           assessments. The guidance requires review of the following items at a site visit:

                  •   subrecipient grant program files
                  •   applicable spending plans
                  •   accounting systems and controls
                  •   records retention systems
                  •   third-party contracting
                  •   procurement activities
                  •   equipment inventory
                  •   equipment and property management systems

           However, SAA monitoring procedures for site visits did not include checklists or
           procedures for assessing the above items. SAA personnel said they relied on
           corporate knowledge, based upon individual skill sets of personnel, to evaluate
           and assess subgrantee accounting system internal controls. SAA personnel also
           said they plan to document this knowledge so that all personnel will be able to
           identify internal controls and other needed mechanisms when on site visits.
           Input was due in December 2013 for the policy update.

           SAA Grants Management Handbook Updates

           The SAA published its GrantsfManagementfHandbook to serve as a “primary
           reference manual to safeguard grant funds and ensure funds are used for the
           purposes for which they were awarded.” The handbook was also to serve as a
           day-to-day management tool for subrecipients in administering grant programs.

           In October 2013, SAA personnel told us that an updated version of this handbook
           was posted online at the SAA’s website. SAA personnel also noted that this
           guidance was a living document that they work to keep updated. However, they
           said they could not identify changes made to this handbook because they did not
           keep track of changes in the most recent update. As of December 2013, the
www.oig.dhs.gov                                15                                        OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           SAA’s website still listed August 2012 as the effective date of the handbook. A
           comparison between the handbook downloaded by the audit team in April 2013
           and the new version (downloaded in December 2013) showed most changes
           were minor.

           We did identify a significant change made to the period subgrantees must retain
           grant and financial records—increasing the period from 3 to 6 years. This change
           is important because 1) the date listed on the SAA’s website was still August
           2012, and 2) there is no listed effective date for this changed requirement.
           Therefore, subgrantees may not be aware of this change and may not comply
           with the new requirement. Without a list of changes to this handbook,
           subgrantees and other users may not know that changes have been made.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Alaska Division of Homeland Security and Emergency Management
           to:

           Recommendation #4:

           Evaluate and update monitoring and oversight policies to ensure the policies and
           procedures align with Federal and state regulations as well as current practices.

           Recommendation #5:

           Ensure the SAA enforces all Federal and state policies and regulations for
           oversight of Federal grants.

           Recommendation #6:

           Ensure that any updated policies or guidance include a list of changes.

           Management Comments and OIG Analysis

           Management Comments to Recommendation #4. FEMA and the State concurred
           with the recommendation. FEMA reported it will require the Alaska DHS&EM to
           evaluate and update monitoring and oversight policies to ensure the policies and
           procedures align with 44 CFR Part 13, state regulations, and current practices.
           The estimated completion date is August 11, 2014. The SAA reported that it is
           drafting a complete revision of its GrantsfManagementfHandbook. It will

www.oig.dhs.gov                                16                                       OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           emphasize the section covering procurement requirements associated with the
           HSGP. Additionally, according to the SAA, it will develop a set of mandatory
           forms based on the appropriate procurement methodology used to support
           every purchase, and DHS&EM’s grants staff will receive grants procurement
           training per the revised handbook.

           OIG Analysis. We consider FEMA’s and the State's proposed corrective actions to
           be responsive to the recommendation. The recommendation is resolved and will
           remain open until we are provided with a copy of the rewritten Grantsf
           ManagementfHandbookfand associated forms.

           Management Comments to Recommendation #5. FEMA and the State concurred
           with the recommendation. FEMA will require the Alaska DHS&EM to enforce all
           Federal (including 44 CFR Part 13) and state policies and regulations for oversight
           of Federal grants. The estimated completion date is August 11, 2014. The SAA
           reported it will institute a three-phased approach to address this
           recommendation. According to the SAA, the three phases will be implemented
           as follows:

                  1.	 Develop a new grant's assessment process, which incorporates a
                      rated system to assess a subgrantee's ability to meet the terms and
                      conditions of a grant award.
                  2.	 Draft and publish a complete revision of the DHS&EM's Grantsf
                      MonitoringfHandbookfand conduct staff training on the revisions.
                  3.	 Establish and publish a 3-year subgrantee onsite schedule. Conduct
                      one onsite monitoring visit for each subgrantee with an open HSGP
                      grant during this 3-year period.

           OIG Analysis. We consider FEMA’s and the State's proposed corrective actions to
           be responsive to the recommendation. The recommendation is resolved and will
           remain open until we are provided with a copy of the rewritten Grantsf
           MonitoringfHandbook, documentation for staff training, and the 3-year
           subgrantee onsite schedule.

           Management Comments to Recommendation #6. FEMA and the State concurred
           with this recommendation. FEMA reported it will require the Alaska DHS&EM to
           ensure that any updated policies or guidance (including its GrantsfManagementf
           Handbook) include a list of changes so that subgrantees are aware of changes
           and can comply with new requirements. The estimated completion date is
           August 11, 2014. The SAA reported that both its GrantsfManagementfHandbook
           and GrantsfMonitoringfHandbook are under complete revision. According to the

www.oig.dhs.gov                                17                                 	      OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           SAA, each handbook will include a page with a summary of changes and a
           mandatory annual review. The SAA requires each subgrantee to attend a grant
           kickoff meeting as part of issuance of a new grant award. As part of this meeting,
           a training session will be conducted on the newly revised GrantsfManagementf
           Handbook and a discussion about DHS&EM monitoring visits outlining the use of
           the GrantsfMonitoringfHandbook for subgrantee transparency.

           OIG Analysis. We consider FEMA’s and the State's proposed corrective actions to
           be responsive to the recommendation. The recommendation is resolved and will
           remain open until we are provided with a copy of the revised Grantsf
           ManagementfHandbook and GrantsfMonitoringfHandbook.

           Best Practices

           The SAA tightly managed its subgrantee application and award process related to
           funding deadlines and projects. The SAA used a project-based application and
           award process for FYs 2010 through 2012 SHSP grants. According to the SAA, the
           State’s application for SHSP grant funds was due to FEMA on June 24 each year.
           In early July, the SAA sent out subgrantee applications and the communities had
           30 days to return the applications to the State. In late August or early September
           of each year, an independent interagency review committee comprising
           volunteers from across Alaska met to review application packages. According to
           the SAA, the committee members signed ethics agreements prior to
           participation. Applications were ranked on various attributes including past grant
           performance issues. The committee then recommended subgrantee awards to
           the SAA. This practice assisted the State in meeting the requirement to obligate
           grant funds to subgrantees we visited, with one minor exception, within 45 days
           for the scope of the audit (FYs 2010 through 2012).

           Subgrantees were required to attend, as a condition of their award, a kick-off
           meeting held by the SAA each grant year. According to the SAA, these meetings
           were held within 30 days of the subgrantee award and were mentioned by
           subgrantees as an SAA best practice. Grant funding deadlines were closely
           managed by the SAA with subgrantee periods of performance ending at least 5
           months prior to the end of the Federal grant period of performance. According
           to SAA officials, this enabled them to ensure that all grant funds were expended
           through reallocations.




www.oig.dhs.gov                                18                                       OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the DHS OIG to audit individual states’ management of SHSP and Urban
   Areas Security Initiative grants. This report responds to the reporting requirement for
   Alaska, which does not receive Urban Areas Security Initiative grants.

   The audit objective was to determine whether Alaska used SHSP grant funds in
   accordance with the law, program guidance, and state homeland security plans and
   other applicable plans; and the extent to which funds awarded enhanced the ability of
   grantees to prevent, prepare for, protect against, and respond to natural disasters, acts
   of terrorism and other manmade disasters.

   The scope of this audit included the plans developed by the State to improve
   preparedness and response to all types of hazards, goals, and objectives set in those
   plans; measurement of progress toward the goals; and assessments of performance
   improvement resulting from this measurement.

   HSGP and its interrelated grant programs fund a range of preparedness activities,
   including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, we reviewed only SHSP funding,
   equipment, and supported programs for compliance.

   The scope of the audit included SHSP grant awards for FYs 2010, 2011, and 2012, as
   shown in table 5.

   Table 5. State of Alaska’s SHSP Awards (FYs 2010-2012)
              Grant Program               FY 2010      FY 2011      FY 2012         Total
    State Homeland Security Program $6,613,200 $5,137,205         $2,801,316    $14,551,721
   Source: FEMA

   The audit methodology included work with FEMA headquarters, Region X, State of 

   Alaska offices, and various subgrantee locations in the State that received grants. To 


www.oig.dhs.gov                                19                                        OIG-14-62
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   achieve our audit objective, we analyzed data, reviewed documentation, and
   interviewed key state and local officials directly involved in state HSGP management and
   administration.

   We sampled grant award files from one state agency and nine subgrantees that received
   SHSP grant allocations in FYs 2010, 2011, or 2012, as shown in table 6. We judgmentally
   selected 79 percent of grant allocations from the Alaska DHS&EM from these grant
   years (as listed in the second column of table 6). To ensure the completeness of
   expenditures, we reconciled data in the Grant Management System to SHSP grant
   balances using Alaska’s General Ledger as of March 31, 2013.

   Table 6. Subgrantee Sample Selection (FYs 2010-2012)
                                                            Grant Funds
                  Subgrantee           Grant Allocations   Remaining as of   Subgrantee Type
                                                             May 2013
    Alaska Department of Public
                                           $199,055            $50,000       State Agency
    Safety
    City and Borough of Juneau             $425,300           $256,570       City and Borough
    City and Borough of Sitka              $116,450            $30,822       City and Borough
    City of Fairbanks                     $2,109,667          $464,342       City
    City of Kenai                            $26,515                $0       City
    City of Palmer                           $71,451            $2,144       City
    Fairbanks North Star Borough          $1,017,360          $343,996       Borough
    Kenai Peninsula Borough                $667,615           $285,324       Borough
    Matanuska-Susitna Borough              $651,539           $252,723       Borough
    Municipality of Anchorage             $3,967,252          $442,305       City
    Total Selected Subgrantee
                                          $9,252,204        $2,128,226
    Allocations and Expenditures
   Source: Alaska DHS&EM

   At each location, we interviewed officials and reviewed documentation supporting state
   and subgrantee management of grant funds. In addition, we verified the existence of
   selected equipment subgrantees procured with grant funds.

   We conducted this performance audit between April 2013 and December 2013 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.


www.oig.dhs.gov                                 20                                          OIG-14-62

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                          l'.S. Ocpnrtmenl of Homehu11d Security
                                                                                          Washington, DC 20472




                                                                                         FEMA
                                                             MAR      5 2014



                  MEMORANDUM FOR:                       Mark Bell
                                                        Acting Assistant Inspector General for Audits
                                                        Office of lnspector General (OIG)
                                                        Department of Homeland Security

                  FROM:                                 DavidJ. Kaufinan       ~U'-"' . . . . .
                                                        Associate Administrator for
                                                        Policy, Program Analysis and International Affairs

                  SUBJECT:                              Federal Emergency Management Agency (FEMA)
                                                        Response to OIG's Draft Report: "A i a~ka's Management of
                                                        Homeland Security Grant Program Awards for Fiscal Years
                                                        20 10 Through 2012" OIG Project No . 13- 137-AUD-FEMA


                  Thank you for the oppornmity to comment on your Draft Report, "Alaska's Management of
                  Homeland Security Grant Program Awards for fiscal Years 20 I 0 Through 20 12" OJG Project
                  No. 13- 137-AUD-FEMA. The findings in the report will be used to strengthen the effectiveness
                  and effi ciency of how we execute and measure our program. We recognize the need to continue
                  to improve the process, including addressing the recommendations raised in this repon . The
                  following are our writ1en response to the six (6) recommendations for implementation, of which,
                  FEMA concurs with all six (6) remmmendations.

                  Recommendation #1: We recommend that the Assistant Administrator, Grant Programs
                  Directorate, require the Alaska Di vision of Homeland Security and Eme rgency Management to
                  assess the current processes and procedures for allocating funds to ensure at least 80 percent of
                  Homeland Security Grant Program funds are al located to subgrantees as required.

                  Response: Concur. FEMA will require the Alaska Division of Homeland Security and
                  Emergency Managemem to assess and make any necessary changes to the current processes and
                  procedures for allocating funds to ensure at least 80 percent of Homeland Security Grant
                  Program fu nds are allocated to subgrantees as required.

                  FEMA requests that this recommendation be considered resolved and open.

                  Estimated Completion Date: August 11,2014

                  Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
                  Directorate, require the Alaska Division of Homeland Security and Emergency Management to

                                                                                         www.fema.gov




www.oig.dhs.gov                                                  21                                                                OIG-14-62

                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              develop comprehensive perfonnance measurement systems for grant program goals and
              objectives that include target levels of performance and criteria against which to measure
              progress toward enhancing preparedness.

              Response: Concur. The National Preparedness Goal (The Goal) and the National Preparedness
              System serve as the framework for assessing grant effectiveness in enhancing preparedness. The
              Goal defines a set of 3 t distinct core capabilities across the mission areas needed to achieve
              national preparedness, and it includes concrete, measurable objectives to manage that risk. The
              Goal's capability targets provide concrete statements of the Nation's requirements in each core
              capability. Strategy updates are encouraged but not required as the methodology described
              below provides the objectives and targets and assessment of progress against those objectives
              and targets.
              As part of the National Preparedness System, FEMA has developed and is implementing
              performance assessments that measure progress toward achieving the Goal. FEMA's strategy is
              to base assessments on the principles that the Nation needs to understand the risks it faces, use
              those risks to determine the capabilities it needs, assess its current capability levels against those
              requirements, and track its progress in closing capability gaps.
              In August 2013, FEMA refined the Threat and Hazard Identification and Risk Assessment
              (lliiRA) methodology through the release of Comprehensive Preparedness Guide (CPG) 201,
              Second Edition. The Second Edition expands the TinRA process to include an estimation of
              resources needed to meet the capability targets. The lliiRA process now assists communities to
              answer questions such as, "What are my current and future risks?" and, "What level of service do
              I need to address my risks?", and addresses what specific capabilities are needed, such as teams
              of specialized resources. Diverging from past efforts to establish measures and metrics for a
              capability that would be applied uniformly, this approach allows a jurisdiction to establish its
              own capability targets based on the risks it faces.
              Once each jurisdiction has determined capability targets through the lliiRA process, the
              jurisdiction estimates its current capability levels against those targets in the State Preparedness
              Report (SPR). The THIRA and SPR processes are scalable to allow sub-jurisdictions, sub-
              grantees and subject matter experts to provide input to the state or territory. Taken together, the
              1HIRA and the SPR results identifY capability needs and gaps. The lliiRA and SPR results
              highlight gaps in capability and state's progress in closing those gaps over time.


              Both CPG 201. Second Edition and the THIRA/SPR/National Incident Management System
              (NIMS) Unified Reporting Tool User Guide encourage engagement with the whole community
              throughout the process. At the beginning of the THIRAJSPR process, whole community
              stakeholders assist in the identification of threats and hazards and capability targets. At the
              conclusion of the THIRAJSPR process, whole community stakeholders with equities in
              applicable core capabilities then corroborate the assessment. Finally, the States are required to
              identify the specific whole community stakeholders that were engaged in the process in the
              reporting tool, whkh provides validation of the accuracy of the data and corroboration of the
              results.



                                                                2




www.oig.dhs.gov                                                22                                                      OIG-14-62

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA provided extensive technical assistance to states and territories in 2013 to ensure they
              understood the guidance and engaged the whole community. This included initial on-site
              technical assistance to each state as well as continual support through monthly webinars,
              conference calls, and one-on-one discussions. The need to ensure whole community
              participation in the process was stressed throughout. In conclusion, FEMA has provided the
              states with clear and concise directions in CPG 201, Second Edition and the Unified Reporting
              Tool User Guide to set target levels ofperfonnancc and criteria against which to measure
              progress toward enhancing preparedness.

              FBMA requests that this recommendation be considered resolved and closed.

              Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Alaska Division of Homeland Security and Emergency Management
              ensure updates to Alaska's THIRA include details and descriptions of desired outcomes as
              required by FEMA guidance.

              Response: Coneur: FEMA will require the Alaska Division of Homeland Security and
              Emergency Management to ensure that future updates to Alaska's THIRA include details and
              descriptions of desired outcomes as required by FEMA guidance (CPG 20 l, version 2).

              FEMA requests that this recommendation be considered resolved and open.

              Estimated Completion Date: January I, 2015

              Recommeadation #4: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Alaska Division of Homeland Security and Emergency Management to
              evaluate and update monitoring and oversight policies to ensure the policies and procedures align
              with Federal and state regulations as well as current practices.

              Response: Coneur: FEMA will require the Alaska Division of Homeland Security and
              Emergency Management to evaluate and update monitoring and oversight policies to ensute the
              policies and procedures align with 44 CFR Part 13, state regulations and current practices.

              FEMA requests that this recommendation be considered resolved and open.

              Estimated Completion Date: August 11,2014

              Recommendation #5: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Alaska Division of Homeland Security and Emergency Management to
              enforce all Federal and state policies and regulations for oversight of Federal grants.

              Response: Concur: FEMA will require the Alaska Division of Homeland Security and
              Emergency Management to enforce all Federal (including 44 CFR Part 13) and state policies and
              regulations for oversight of Federal grants.

              FEMA requests that this recommendation be considered resolved and open.



                                                             3




www.oig.dhs.gov                                              23                                                   OIG-14-62

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              Estimated Completion Date: August 11,2014

              Recommendation #6: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Alaska Division of Homeland Security and Emergency Management to
              ensure that any updated policies or guidance include a list of changes.

              Response: Conenr: FEMA will require the Alaska Division of Homeland Security and
              Emergency Management to ensure that any updated policies or guidance (including its Grants
              Management Handbook) include a list of changes so that subgrantees are aware of changes and
              can comply with new requirements.

              FEMA requests that this recommendation be considered resolved and open.

              Estimated Completion Date: August 11, 2014

              Again, we thank you for the work that you and your team did to inform us of measures we can
              take to enhance the program's overall effectiveness. We look forward to OIG's final report for
              "Alaska's ManagementofHomeland Security Grant Program Awards for Fiscal Years 2010
              Through 2012". Please direct any questions regarding this response to Gary McKeon, FEMA's
              Chief Audit Liaison, at 202-646-1308.

              Enclm;ure:
                 1. Alaska THIRA
                 2. Alaska SPR




                                                             4




www.oig.dhs.gov                                             24                                                 OIG-14-62

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                                                                                 Department of Military and
                                T HE STATE                                                Veterans A tl"airs
                                    O
                                    JALASKA                                        Division of Homeland Security and
                                                                                             Emergency Management
                                                                                                          P.O. Box 5 750
                                    GOV!iR'\OR S13A.N PARN ~: J.I.                                 JBER. AK 99505-0000
                                                                                                    Main: 907.428.7000
                                                                                                      r o>: 90 7.428.7009
                                                                                                 www.reody.olO$kO.gov
                  March II , 2014

                  Mr. Michuel Siviy
                  Office of Inspector General, Mail Stop 0305
                  245 Murray Drivt:, SW
                  Wash ington, DC 20528-0305

              RE·        Alaska' ~ OIG Audit HSC1 P .Fiscal Years2010-2012

              Dear Mr. Siviy:

              Please find enclosed the State of Alaska's State Admini~trative Agene)' Management Comments
              to the Department of Homt:hmd Security Audit li.lf fiscal years 2010-20 12.

              Please contact Dale Crum at 907-428-7005 if you have any que~'tions concerning our response or
              if you need any further clarification.


              Sinc·erely,




           0{J,Jolm W.
              Director
                          Madden


              Enclosures:       Alaska Management Response for OJG Audit FY 2010-2012




www.oig.dhs.gov                                                  25                                                     OIG-14-62

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                  State of Alaska SAA Management Comments to DHS OIG Audit

                    1.   OIG Recommendation: Assess the current processes and procedures for allocating funds to
                         ensure at least 80 percent of Homeland Security Program Grant is allocated to sub~ grantees as
                         required.

                         Concurrence: SAA concurs with the finding and recommendation.

                         Management Comments: DHS&EM has robust grants database with features that include sub~
                         grantee information, project budget details for equipment, planning, training, and exercises.
                         This data rolls to sub~ balance for each sub~grantee to a total balance for the grant. The focus has
                         been on total grant expenditures within the grant's performance period. The audit found a
                         positive shortfall within the grant's database for tracking the issuance of 80 percent of the SAA
                         grant award within 45 days. DHS&EM will create a management oversight feature within the
                         database with two unique characteristics. The first one is a 45 day countdown clock and the
                         second will be a sub~grantee budget total measuring the 80 percent requirement. In addition,
                         DHS&EM will implement a procedure to ensure during the 45 day countdown leadership has a
                         weekly progress briefing.

                         Timeline Commitment: The data base reconfiguration and procedure implementation will be
                         implemented by July 31, 2014 to be incorporated with the 2014 Homeland Security Grant
                         Program release.

                    2.   OIG Recommendation: Develop comprehensive performance measurement system for grant
                         program goals and objectives that include target levels of performance and criteria against
                         which to measure progress toward enhancing preparedness.

                         Concurrence: SAA concurs with the finding and recommendation.

                         Management Comments: The DHS&EM created the Alaska Assessment in order to efficiently
                         collect information on 23 core capabilities in the 3 mission areas of Response, Recovery, and
                         Mitigation. Following guidance in the National Preparedness Goal and the Preparedness Cycle,
                         communities report on the 23 oore capabilities in each of the 3 mission areas to establish target
                         levels of performance by identifying desired outcomes.

                         DHS&EM is collecting Planning, Organization, Equipment, Training, and Exercise (POETE)
                         information through the Alaska Assessment which will greatly assist SAA in meeting program
                         goals and objectives.

                         The Community Preparedness Report (CPR), which is a product of the Alaska Assessment, will
                         show the current level of preparedness and will identify future goals and objectives that need to
                         be addressed in the community during the next grant year. Year-to-year progress will be
                         measured by enhancing preparedness and shown in future assessments.

                         Timeline Commitment: The Alaska Assessment is a "Living Planning Document" with an annual
                         sub-grantee submission to the SAA. The next sub-grantee assessments will be due in December
                         2014 for analytical review and culminating data into the Alaska' s THIRA submission.




www.oig.dhs.gov                                                    26                                                           OIG-14-62

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  3.   OIG Recommendation: Ensure updates to Alaska' s THIRA include details and descriptions of
                       desired outcomes as required by FEMA guidance.

                       Concurrence: SAA concurs with the finding and recommendation.

                       Management Comments: DHS&EM corrected the desired outcomes and capability targets for
                       the 2013 THIRA submission. They now align with what FEMA requires and are more clear and
                       concise.

                       FEMA General Comments:
                       "Overall, the State of Alaska's 2013 THIRA represents a significant improvement over the State's
                       2012 submission. FEMA would like to formally recognize the State for the hard work and many
                       hours that wEnt into crafting this high-quality product. DespitE thE vEry short 2013 THIRA
                       timeline and the late release ofCPG-201, the State of Alaska managed to create a THIRA that
                       closely adheres to newTHIRA program requirements while seamlessly building upon its 2012
                       submission."


                       FEMA Overarching Comments:
                       "The state's 2013 capability targets (THIRA Step 3) demonstrate a strong adherence to the
                       definition and fundamental purpose of each core capability. This is indicative of the state's
                       thorough understanding of the THIRA process and the core capabilities defined in the National
                       Preparedness Goal (NPG)."

                       DHS&EM has also improved the information gathering through partnerships and by deploying
                       the Alaska Assessment to community partners. These improvements will provide an improved
                       understanding and the desired outcomes and capability targets in the future with measureable
                       results.
                       Timeline Commitment: The "Comments" statements are taken from the "Alaska CY13 THIRA
                       Review: FEMA Region 10 comments on the CY13 THIRA submission and recommendations for
                       improvements to the State's CY14 THIRA," dated January 17,2014: The next submission is due
                       December 31,2014.

                  4.   OIG Recommendation: Evaluate and update monitoring and oversight policies to ensure the
                       policies and procedures align with federal and state regulations as well as current practices.

                       Concurrence: SAA concurs with the finding and recommendation.

                       Management Comments: DHS&EM is currently drafting a complete revision of DHS&EM's
                       Grants Management Handbook. Emphasis will be placed on the section covering procurement
                       requirEments associated with the Homeland Security Grant Program. A rEview of 44 CFR Part 13
                       and those requirements will be incorporated into the revision. DHS&EM will conduct an explicit
                       review of the current SAA sub-grantee procurement reporting and documentation requirements
                       for applicability and reasonableness in supporting purchases utilizing Homeland Security Grant
                       Program funding.

                       A set of mandatory forms will be developed based on the appropriate procurement
                       methodology used to support every purchase. The forms will as contain a requirement to attach




www.oig.dhs.gov                                                 27                                                        OIG-14-62

                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                       a copy of the federal debarment and suspension listing for the vendor used to make the
                       purchase.

                       As part of the application process, under the self-assessment section there will be a specific
                       question on whether the applicant's procurement code/policy/procedure has a written code of
                       standards. The SAAwill develop an alternative procurement code of standards form for sub-
                       grantees that cannot meet this requirement. The form will be listed on the grant award as an
                       assurance requiring signatures by the sub- grantee's signatory authority and project manager for
                       the award.

                       DHS&EM's grants staff will receive grants procurement training per the revised handbook.

                       The Grants Management Handbook will require a mandatory annual review and will be
                       published on DHS&EM's Grant Section website page.

                       As an interim measure and during the OIG audit, DHS&EM did introduce and implement a new
                       procurement method report for the Homeland Security Grant Program, This form is mandatory
                       to accompany all reimbursement requests as a result of a procurement activity. This was briefed
                       to sub-grantees at the SAA required 2013 Homeland Security Grant Program kickoff meeting.

                       Time line Commitment: The rewrite of the Grants Management Handbook and development of
                       the forms will be completed by July 31, 2014 to be incorporated with the 2014 Homeland
                       Security Grant Program release.

                  5.   OIG Recommendation: Ensure the SAA enforces all federal and state policies and regulations for
                       oversight of federa I grants.

                       Concurrence: SAA concurs with the finding and recommendation.

                       Management Comments: DHS&EM will implement a three phase approach to make corrections
                       as outlined in the OIG recommendation.

                       The first phase; develop a new grant's assessment process incorporating a rated system to
                       measure sub-grantee's viability to accept the terms and conditions of a grant award, financial
                       capability, valid State Single Audit (if required), good standing on the federal debarment and
                       suspension listing, current DUNS number, previous grant performance, and grants monitoring
                       reports (if applicable). Jurisdictions will report within their Homeland Security Program
                       application on their financial capability, procurement process, and provide a copy of their last
                       audit.

                       The second phase; draft and publish a complete revision of DHS&EM's Grants Monitoring
                       Handbook. The guiding principles for the revision will encompass sub-recipient grant files,
                       accounting system, records retention, contracting/procurement, and the Homeland Security
                       Grant Program equipment inventory. DHS&EM grant's staff will receive sub-grantee monitoring
                       training per the revised handbook.

                       The third phase; DHS&EM will establish and publish a three year sub-grantee on-site schedule.
                       This requirement will consist of one on-site monitoring visit in a three year period for each sub-




www.oig.dhs.gov                                                  28                                                         OIG-14-62

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                       grantee for all open Homeland Security Grant Programs. This three year schedule will be
                       published as an appendix to the Grants Management Handbook and updated during the
                       mandatory annual review. Sub-grantee monitoring on-site schedule will also be published on
                       DHS&EM's Grant Section website page.

                       Timeline Commitment: The development of the grant's assessment, rewrite of the Grants
                       Management Handbook with staff training, and the three year sub-grantee on-site schedule will
                       be implemented by July 31,2014.

                  6.   OIG Recommendation: Ensure that any updated policies or guidance include a list of changes.

                       Concurrence: SAA concurs with the finding and recommendation.

                       Management Comments: The Grants Management Handbook and Grants Monitoring
                       Handbook are both under complete revision. Each handbook will inoorporate the
                       recommendation to include a page for a summary of changes and will also identify a mandatory
                       annual review. In addition, both handbooks will be posted on DHS&EM's Grant Section website
                       page.

                       The SAA requires each sub-grantee to attend a Grant Kickoff Meeting as part of issuance of a
                       new grant award. As part of the kickoff meeting a training session will be conducted on the
                       newly revised Grants Management Handbook and a discussion about DHS&EM monitoring visits
                       outlining the use of the Grants Monitoring Handbook for sub-grantee transparency. All policy
                       and guidance will be covered as part of this meeting.

                       Timeline Commitment: The revision of both the Grants Management Handbook and Grants
                       Monitoring Handbook will be completed by July 31, 2014 to be incorporated with the 2014
                       Homeland Security Grant Program release.




www.oig.dhs.gov                                                 29                                                     OIG-14-62

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Description of the Homeland Security Grant Program
   The State Homeland Security Program supports the implementation of state
   homeland security strategies to address the identified planning, organization,
   equipment, training, and exercise needs to prevent, protect against, respond to, and
   recover from acts of terrorism and other catastrophic events.

   The Urban Areas Security Initiative Program funds address the unique planning,
   organization, equipment, training, and exercise needs of high-threat, high-density urban
   areas, and assists them in building an enhanced and sustainable capacity to prevent,
   protect against, respond to, and recover from acts of terrorism.

   The Metropolitan Medical Response System Program supports the integration
   of emergency management, health, and medical systems into a coordinated response to
   mass casualty incidents caused by any hazard. Successful Metropolitan Medical
   Response System Program grantees reduce the consequences of a mass casualty
   incident during the initial period of a response by having augmented existing local
   operational response systems before an incident occurs. Although no longer funded in
   FY 2012 as a discrete grant program, all activities and costs are allowed under the
   FY 2012 HSGP.

   The Citizen Corps Program brings community and government leaders together to
   coordinate the involvement of community members and organizations in emergency
   preparedness, planning, mitigation, response, and recovery. Although no longer funded
   in FY 2012 as a discrete grant program, all activities and costs are allowed under the
   FY 2012 HSGP.

   Operation Stonegarden funds are intended to enhance cooperation and
   coordination among local, tribal, territorial, state, and Federal law enforcement
   agencies in a joint mission to secure the United States borders along routes of ingress
   from international borders to include travel corridors in states bordering Mexico and
   Canada, as well as states and territories with international water borders.




www.oig.dhs.gov                               30                                        OIG-14-62

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Michael Siviy, Director
   Lorinda Couch, Audit Manager
   Carolyn Floyd, Auditor
   Philip Emswiler, Program Analyst
   Dianne Leyva, Program Analyst
   Kevin Dolloson, Communications Analyst
   Kendra Loper, Independent Referencer




www.oig.dhs.gov                             31                  OIG-14-62

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  32                        OIG-14-62

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
